FAA IS NOT REALIZING THE FULL BENEFITS OF
  THE AVIATION SAFETY ACTION PROGRAM

         Federal Aviation Administration
          Report Number: AV-2009-057
           Date Issued: May 14, 2009
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Is Not Realizing the Full Benefits            Date:    May 14, 2009
           of the Aviation Safety Action Program
           Federal Aviation Administration
           Report Number AV-2009-057

  From:    Lou E. Dixon                                           Reply to
                                                                  Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Acting Federal Aviation Administrator

           The Office of Inspector General conducted this audit following a complaint from a
           Federal Aviation Administration (FAA) inspector regarding the acceptance of a
           fatal accident into the Aviation Safety Action Program (ASAP).                   On
           January 16, 2006, a contract mechanic in El Paso, Texas, was killed while
           troubleshooting an engine oil leak as two pilots performed an engine run-up
           procedure. Within 24 hours, the pilots submitted a request for the accident to be
           accepted into the air carrier’s ASAP. ASAP is a joint FAA and industry program
           intended to generate safety information through voluntary disclosure that may not
           be otherwise obtainable to identify potential precursors to accidents. The program
           allows aviation employees to self-report safety violations to air carriers and FAA,
           including violations of Federal Aviation Regulations, without fear of reprisal
           through legal or disciplinary actions.

           The inspector requested that we review the ASAP submission to determine
           whether FAA should have accepted the fatal accident into the program. To
           evaluate the complaint, we reviewed FAA’s guidance and procedures for
           implementing ASAP. Based on the results of that review, we expanded our audit
           to include ASAP at two other air carriers. Our objective was to assess FAA’s
           implementation of ASAP and identify any improvements necessary for FAA to
           obtain maximum safety benefits from the program. This report presents the issues
           we identified and provides recommendations for program improvements. This
           performance audit was conducted in accordance with generally accepted
           government auditing standards prescribed by the Comptroller General of the
           United States and included such tests as we considered necessary to provide
                                                                                                      2


reasonable assurance of detecting abuse or illegal acts. Exhibit A details our
review objective, scope and methodology.

BACKGROUND
Currently, 73 air carriers participate in             Figure. MOUs for ASAP by Labor Type
ASAP. To establish an ASAP program,                   Flight Attendant Other
air carriers, applicable employee unions                                 5
                                              Dispatcher          14                                Pilot
                                                                      8%  3%                     66
(e.g., pilots), and FAA sign a                    44
                                                             26%
                                                                                      38%
Memorandum of Understanding (MOU)
                                                                      25%
outlining the program’s purpose, terms,
administrative procedures, and reporting
process.     Air carriers can establish Source: FAA                    43
                                                                    Mechanic
                                                                                          Total MOUs:
                                                                                          172
MOUs with pilots, mechanics, flight Data are as of Jan. 2009.
                                           Percentages shown exceed 100 percent due to rounding.
attendants, and dispatchers; most of the
current MOUs for ASAP are with pilots (see figure). Because our review was
initiated due to a complaint about a pilot ASAP report, the focus of our work was
on the pilot ASAP program.

Airline employees report safety violations to the air carrier’s ASAP manager, who
then forwards the report to the Event Review Committee (ERC). The ERC is
comprised of representatives from each party to the MOU. ERC responsibilities
include determining whether reports are accepted into ASAP, recommending any
needed corrective actions, and working with the air carrier to develop appropriate
corrective actions.

FAA’s Air Transportation Voluntary Safety Programs Branch manages voluntary
aviation industry programs like ASAP.         This office reviews program
implementation and collects data and feedback from ASAP participants. The
office uses these data to determine whether the program is achieving safety
objectives.

RESULTS IN BRIEF
The underlying principle of ASAP is to obtain voluntarily reported safety
information to proactively prevent accidents and incidents. When properly
implemented, this program could provide valuable safety data to FAA. We found,
however, that FAA’s ineffective implementation and inadequate guidelines have
allowed inconsistent use and potential abuse of the program. For example, the
ERC that evaluated the ASAP report for the January 2006 fatal accident included
an FAA inspector who had previously served as a pilot for the same air carrier as
the two pilots involved in the accident. This inspector subsequently shared
                                                                                                   3


confidential hotline complaint information related to FAA’s acceptance of the
accident into ASAP with the air carrier, which presented a conflict of interest.

Further, FAA has limited the program’s effectiveness because it has not devised a
method to fully compile data reported through ASAP and analyze these data on a
national level to identify trends. FAA cites funding issues along with air carriers’
concern for data protection as hindrances to developing and implementing a
program or method to identify safety trends on a broader scale. While ASAP has
proven highly beneficial to the airlines, FAA currently obtains only limited
aviation safety data through the program for use in identifying systemic safety
issues. As a result of these issues, ASAP, as currently implemented, is a missed
opportunity for FAA to enhance the national margin of safety. To realize the full
benefits of ASAP, FAA must make program improvements in the following areas.

FAA needs to modify ASAP guidance to clarify which incidents carriers
should exclude from ASAP and clearly define “intentional disregard for
safety.” FAA’s current ASAP procedures allow acceptance of accidents
(including fatal accidents). However, in our view, this contradicts ASAP’s
fundamental purpose—to gather information on safety incidents that might
otherwise remain unknown—because FAA already obtains safety information on
accidents through internal and National Transportation Safety Board (NTSB)
investigations. To ensure only valid incidents are accepted, FAA should clarify
ASAP guidance with a disqualifier similar to that of the National Aeronautics and
Space Administration’s (NASA) Aviation Safety Reporting System (ASRS), 1 a
voluntary reporting system that explicitly excludes accidents.

Further, FAA guidance for ASAP does not clearly define the term “intentional
disregard for safety.” FAA’s program surveys for ASAP in fiscal years (FY) 2005
through FY 2007 found that ERC members had difficulty interpreting this criteria
for ASAP submissions. Without proper clarification, determination of intentional
disregard becomes strictly subjective, which can impede FAA’s ability to take
appropriate enforcement action. For example, the inspector who contacted our
office about the 2006 accident believed that intentional disregard had contributed
to the fatality, but the ERC members did not. At the time the accident was
accepted into ASAP, FAA did not know the cause of the accident or whether it
involved intentional acts. The inspector who made the complaint questioned
whether events involving the loss of human life should be closed without an in-
depth investigation by FAA and with only minor administrative action taken
against individuals that may have contributed to the accident. To enhance safety
efforts, FAA should revise its guidance to refine this definition.


1
    ASRS was established in 1975 under a Memorandum of Agreement between the FAA and NASA to receive,
    process, and analyze voluntarily submitted incident reports from aviation employees.
                                                                                                                     4


FAA needs to standardize how and when carriers should submit ASAP
reports to FAA inspectors. We found instances in which FAA inspectors did not
receive ASAP reports in a timely manner. For example, the inspector representing
FAA on the ERC for the January 2006 accident did not receive the ASAP report
until the ERC meeting—7 days after the accident. However, the air carrier and
union ERC members obtained the report immediately after the pilots submitted it.
The problem was addressed at this air carrier once we informed FAA
Headquarters. However, at least two other carriers continue to experience this
problem. FAA needs to standardize how and when its ERC representatives obtain
ASAP reports so they can review all pertinent FAA rules before an ERC meeting.
One possible method would be for FAA to require air carriers to give FAA’s ERC
members electronic access to ASAP reports.

FAA needs to correct misperceptions that ASAP is an amnesty program and
ensure ERC members are impartial. We found instances where ERCs viewed
ASAP as an “amnesty program” (i.e., they believe any corrective or enforcement
actions for ASAP-reported incidents would be inappropriate). Partnership
programs like ASAP are not primarily focused on discipline; rather, they are
intended to facilitate collaboration between FAA and air carriers to identify and
resolve safety issues. Confusion about the purpose of ASAP can adversely affect
the program. For example, since our review, American Airlines, Comair, and US
Airways pilots have discontinued their ASAPs due to conflicting views on actions
taken against pilots that have submitted ASAP reports. 2 Delta pilots discontinued
their ASAP in December 2006 for similar reasons and then reinstated it in January
2009 at FAA’s urging. According to the Air Line Pilots Association, many pilots
believe that any corrective actions resulting from an ASAP report, such as
additional check rides 3 or simulator training, are punitive. Also, pilots and air
carriers disagree on air carriers’ authority to take disciplinary action for events
reported under ASAP when the air carriers obtain information on the reported
event independently of the ASAP report. This indicates a need for improved FAA
guidance and additional education to clarify ASAP’s intent. To accomplish this,
FAA needs to ensure each carrier’s MOU clearly states that the ERC has the
authority to recommend corrective or administrative actions as acceptable
solutions to reported violations.

Further, FAA’s ASAP training does not address potential bias by inspectors
assigned to an ERC. FAA’s ERC representative at the carrier involved in the 2006
fatal accident was a former pilot for the airline; he later shared confidential hotline
complaint information related to FAA’s acceptance of the accident with the
2
    According to FAA, US Airways has reestablished its MOU with pilots, and American Airlines is in the process of
    doing so.
3
    Check rides allow instructors to examine flying proficiency and other factors that influence potential performance,
    judgment, and stability. They examine how well a pilot responds to the stress of in-flight emergencies in a flight
    simulator.
                                                                                                                5


carrier. To avoid the appearance of bias, FAA should emphasize the need for
impartiality as part of its required ERC training and implement procedures to
require periodic refresher training in this area. Also, FAA should clarify FAA
field office management responsibilities to ensure personal relationships between
inspectors and airline personnel do not influence decision-making.

We are not advocating a return to past practices where FAA relied primarily on
penalties and fines when airlines or aviation employees committed safety
violations. FAA believes safety partnership programs are valuable in forming
collaborative relationships with air carriers. Used properly, these programs can
indeed be important tools for FAA and the aviation industry. However,
partnership programs must be balanced with a strong commitment to oversight so
that they do not lapse into automatic amnesty for violators.

FAA must gather sufficient ASAP information from inspectors to proactively
identify safety issues and assess the effectiveness of air carriers’ corrective
actions for repeat violations. Currently, FAA inspectors compile quarterly
reports of ASAP activity for each participating air carrier and submit them to the
Voluntary Safety Programs Branch at FAA Headquarters. However, these reports
do not provide sufficient details about ASAP events or corrective actions and are
not used by FAA for trend analysis. The quarterly reports for the various air
carriers contain different information in varying formats, which would make
compilation for analysis difficult.      The reports typically contain general
information on the number—not the nature—of ASAP submissions for that
quarter and any resulting “safety enhancements.”

While this information is valuable to individual air carrier safety programs, FAA
has overlooked an opportunity to enhance the national margin of safety by
collecting ASAP data that can be used for trending, identification of risk factors
and accident precursors, policy development, and dissemination of collective
safety data to FAA inspectors and other carriers. An independent review team,
convened by the Secretary of Transportation in May 2008 to examine FAA’s
safety culture and management, also recommended that FAA compile and analyze
ASAP data to identify trends and patterns that represent risks. 4 These actions
would also help to guarantee the integrity of voluntary reporting programs.

FAA has contracted with Mitre Corporation to develop a tool, called the Aviation
Safety Information Analysis and Sharing (ASIAS) system, to perform integrated
queries across ASAP and other safety databases. FAA is using ASIAS to assess
the magnitude of problems that have already been identified and is working to
expand ASIAS functionality. However, ASIAS does not yet have the capability to

4
    “Managing Risks in Civil Aviation: A Review of the FAA’s Approach to Safety,” Report of the Independent Review
    Team, September 2, 2008.
                                                                                 6


trend safety data to identify potential risk factors. Additionally, access to ASIAS
data is limited to persons or groups authorized by members of an executive board
that administers the system.

Effective corrective action by air carriers is also a concern. We identified
repetitive reporting of the same problems (i.e., altitude deviations and checklist
usage) and the same proposed or implemented safety enhancements from quarter
to quarter. According to FAA’s ASAP guidance, FAA requires carriers to
complete corrective actions that are acceptable to all members of the ERC to
resolve any safety deficiencies; otherwise, FAA could terminate the carrier’s
ASAP. In our view, repetitive reports of the same problem would indicate that a
carrier’s ASAP program is ineffective.

Our recommendations to FAA focus on actions needed to (1) clarify ASAP
guidance, (2) emphasize to employees that ASAP is not an amnesty program,
(3) ensure effective inspector reporting of ASAP activity, and (4) use ASAP data
for trend analysis at a national level. We are making a total of eight
recommendations, which are listed on page 16 of this report. FAA’s comments
and our response are discussed on pages 17 and 18.

FINDINGS
ASAP is a potentially valuable safety tool; however, FAA is not realizing the full
benefits of the program. FAA’s ineffective implementation and monitoring and
inadequate guidelines have contributed to the inconsistent use and diminished
safety value of the program. Because FAA has not devised a method to gather
sufficient data, little is understood about nationwide trends in the types of
violations reported under ASAP, and ASAP reports do not help FAA determine
whether systemic, nationwide causes of those violations are identified and
addressed.

ASAP Guidance Lacks Clarity Regarding Which Incidents Should Be
Excluded From the Program
We determined that FAA’s guidance does not specifically exempt accidents from
ASAP. Therefore, there was nothing to preclude the ERC from accepting the
January 2006 accident into the program. The FAA inspector and air carrier
representatives on the ERC stated that they determined that the pilots did not
intentionally disregard safety. Further, the ERC found no evidence of criminal
activity or other conditions that met the criteria for rejecting an ASAP report.

In our view, however, acceptance of accidents undermines ASAP’s fundamental
purpose—to gain access to information that might otherwise remain unknown by
allowing employees to report safety violations without fear of reprisal through
                                                                                     7


legal or disciplinary actions. Because all accidents are reported to FAA and
investigated thoroughly by both FAA and the NTSB, we do not believe any
significant unknown information would be gleaned through acceptance of any
accident into ASAP, especially a fatal accident.

The FAA Supervisory Principal Operations Inspector responsible for oversight of
the air carrier where the fatal accident was accepted agreed that when accidents are
accepted into ASAP, the program has failed because the intent of ASAP is to
identify precursors to prevent accidents or fatalities. In other words, to recognize
unsafe conditions before, not after, they result in an accident.

To determine whether accidents are valid contributions to ASAP, we attempted to
examine air carrier ASAP data to identify the acceptance of other accidents into
ASAP. Air carriers’ MOUs with FAA, which outline their ASAPs, stipulate that
the air carriers keep all documents and records regarding the program. Due to
strict confidentiality provisions, however, we were not able to access air carriers’
ASAP data needed to perform this analysis. FAA also could not provide us with
the compiled data on a national level.

We therefore compared ASAP to NASA’s voluntary reporting program, ASRS, in
which analysts collect, analyze, and respond to voluntarily submitted aviation
safety incident reports to lessen the likelihood of aviation accidents. FAA
provides most of the funding for ASRS, and NASA administers the program and
sets its policies in consultation with FAA and the aviation community. Safety
analysts identify safety hazards and issue alerting messages to appropriate FAA
offices or other aviation authorities. De-identified information (i.e., all identifying
carrier information is removed) is also incorporated into the ASRS database,
which can be accessed by the public.

We determined that this program has many similarities to ASAP (see table below).
In contrast with ASAP, however, ASRS does not accept accidents into its database
and does allow electronic access to ASRS activity. Any accidents reported by
pilots, controllers, and other aviation personnel into ASRS are forwarded by
NASA to NTSB and FAA for investigation. FAA should implement a similar
disqualifier for ASAP in clarifying guidance regarding which incidents should be
accepted into or excluded from the program.
                                                                                                     8


         Table. Comparison of Two Voluntary Safety Reporting Programs
                             Program Description:                                  ASRS ASAP
        Non-punitive voluntary reporting program                                   Yes         Yes
        Reports obtained from pilots, air traffic controllers, flight              Yes         Yes
        attendants, and maintenance technicians
        Designed to collect voluntarily submitted aviation safety                  Yes         Yes
        violations
        Report processing includes de-identification to protect                    Yes         Yes
        reporter confidentiality
        Direct access to the database is available for the public                  Yes         No
        through an FAA website
        Accepts accidents into its database                                        No          Yes
        Data analysis results in safety alerts to aviation authorities             Yes         No

Another area in which ASAP guidance lacks clarity is with its use of the phrase
“intentional disregard for safety.” FAA’s guidance states that violations involving
an intentional disregard for safety should be excluded from ASAP. FAA
guidance, however, does not provide any clarifying information on what this
phrase means. FAA’s guidance 5 provides only two examples of violations that
would not be eligible for submission into the ASAP program because they
involved an intentional disregard for safety. One example involves a first officer
who falsely reported he had completed the exterior pre-flight inspection when he
did not inspect the top wing surface for ice, resulting in an emergency landing.
The other involves a mechanic who knowingly used an unauthorized lubricant on
an engine valve to avoid delays in completing the job order. However, FAA’s
guidance does not further explain this phrase under its “Key Terms,” which are
defined “for the purposes of ASAP to ensure a standard interpretation of the
guidance.”

In FAA’s annual reviews of the ASAP program in FY 2005 through FY 2007,
several respondents indicated that they had experienced problems or interpretation
issues with the meaning of “intentional disregard for safety” (see FAA’s pilot ERC
survey results at exhibit C). We believe that this poses a significant problem
because, without proper clarification, determination and interpretation of
“intentional disregard” becomes strictly subjective and can complicate safety
matters.

For example, the inspector who contacted our office after the El Paso mechanic’s
death strongly believed that intentional disregard had contributed to the fatality,
but the ERC members did not. The NTSB’s investigation report—issued on
January 31, 2008—found that contributing factors in the accident were “the

5
    FAA Advisory Circular 120-66B, Aviation Safety Action Program (ASAP), November 15, 2002.
                                                                                                                    9


airline’s insufficient training of contract mechanics and the airport’s failure to
disseminate a policy prohibiting ground engine runs above idle power in the
terminal area.” The FAA investigation of the accident recommended a civil
penalty of $55,000 against the airline involved. 6 The two pilots received letters of
warning, which stated that as the result of their “careless operation” of the aircraft,
“passenger safety may have been jeopardized during the boarding operation….”

The inspector who made the complaint stated the accident was caused by the
mechanic’s “preventable human error and poor judgment” and the flight crew’s
failure to follow FAA- and air carrier-approved procedures for handling engine oil
leaks and conducting engine run-ups. He specifically mentioned the pilots’
“reckless operation of the aircraft at high power settings” while still at the
passenger gate and questioned whether events involving the loss of human life
should be closed without an in-depth investigation by FAA and with only minor
administrative action taken against those who may have contributed to the
accident. To enhance safety efforts and ensure appropriate corrective actions,
FAA should determine what types of problems ERC members encounter in
interpreting intentional disregard and revise its guidance to refine this definition.

FAA Inspectors Do Not Have Timely Access to ASAP Reports
We found that FAA has not clarified when and how FAA inspectors assigned to
ERC committees should obtain ASAP reports for review. The process for
transmitting ASAP reports to FAA representatives was different at each of the
three carriers we reviewed. When we initiated our review, we determined that
some inspectors received the reports immediately upon employee submission,
while others did not receive the reports until weeks after an event had occurred.

The inspector representing FAA on the committee that handled the January 2006
fatal accident did not receive ASAP reports until the ERC committee meeting on
January 23—7 days after the accident. However, the air carrier and union ERC
members obtained the ASAP report as soon as it was submitted.

It is important that inspectors receive the reports in a timely manner so they are
able to review all pertinent FAA regulations and procedures prior to meeting with
the other ERC committee members. The Director of FAA’s Air Transportation
Voluntary Safety Programs Branch stated that a practice in which the Agency’s
ASAP representative does not receive ASAP reports in a timely manner is
inappropriate and certainly is not considered an industry “best practice.” The
Director pointed out that FAA can revise the MOU language to address this issue.



6
    The ERC that reviewed an ASAP request from the other mechanics involved in the accident rejected the request.
                                                                                10


Our concerns with this practice were confirmed in FAA’s Annual ASAP Review
for FY 2006. In its report, FAA disclosed that 2 of the 12 survey participants
reported that FAA representatives on ERCs did not receive reports in a timely
manner. However, FAA’s annual ASAP review did not include the air carriers
that we visited. Therefore, the issue of not transmitting ASAP reports to FAA in a
timely manner may be more widespread than FAA is aware.

As a result of our review, the Voluntary Safety Programs Branch took immediate
action to ensure that the FAA inspector for the carrier where the accident occurred
receives ASAP reports in a more timely manner. FAA should consider revising its
guidance to standardize how all FAA inspectors involved with ASAP at their
assigned air carriers obtain ASAP reports. One possible solution would be
requiring air carriers to grant FAA representatives on the ERC electronic access to
the carrier’s ASAP reports database, similar to what is currently available through
ASRS.

Unclear FAA Guidance Has Allowed Some To Misperceive ASAP as
an Amnesty Program, and ASAP Training Does Not Emphasize the
Need for ERC Members To Be Impartial
Partnership programs are intended to facilitate collaboration between FAA and air
carriers to identify and correct safety issues. We found, however, that FAA’s
guidance on ERCs is subject to misinterpretation regarding ASAP’s purpose. As a
result, some aviation employees have come to view it as an amnesty program and
therefore believe that any corrective actions taken in response to an ASAP-
reported incident, such as additional employee safety training, would be
inappropriate. FAA’s training for ASAP also does not address the potential for
bias by inspectors assigned to an ERC. For example, in the 2006 case, the FAA
inspector responsible for oversight of partnership programs was a former air
carrier employee whose actions could be perceived as biased in favor of the air
carrier.

ASAP Is Viewed as an Amnesty Program
We found several instances in which FAA, air carrier, and union representatives
incorrectly viewed ASAP as an “amnesty program” and believed that any
corrective or enforcement actions for ASAP-reported incidents would be
inappropriate. For example, pilots at one carrier objected to ERC members merely
obtaining additional information about an incident disclosed in an ASAP report.
FAA’s annual ASAP reviews have found similar concerns. Specifically,
25 percent of respondents in FY 2007 and 16 percent in FY 2006 indicated that
ASAP was perceived as an amnesty program. In FY 2005, 50 percent of
respondents indicated this perception (see exhibit C). We believe this is due to
                                                                                 11


unclear FAA guidance on the authority of the ERC, which can adversely affect
ASAP implementation.

In multiple, annual ASAP reviews FAA noted that ERC member and ASAP
manager interviews indicated a need to further define what constitutes a corrective
action, when an action is appropriate, and how an action should be recorded and
tracked. According to FAA, in many cases, ERC members were reluctant to
recommend corrective actions when the ASAP report was the only source of
information about an incident due to concern that these actions might inhibit
employee participation.

Confusion about the intent of ASAP has hindered the program at multiple air
carriers. For example, Delta, American Airlines, US Airways, and Comair pilots
ended their participation in ASAP because of disagreements regarding corrective
actions. At Delta, pilot union representatives expressed concern about the airline’s
policy of initiating additional corrective action (e.g., check rides) for pilots who
have submitted ASAP reports. According to Delta managers, the union felt that
once a pilot submitted a report to ASAP, Delta should have a “hands-off” policy
and that it was inappropriate to interview the pilots. Delta pilots withdrew from
ASAP in December 2006 and reinstated the ASAP program in January 2009 at the
urging of FAA. Also, American Airlines and its pilots union were unable to agree
on MOU language limiting the carrier’s authority to take disciplinary action for
events reported under ASAP in instances where the carrier had independently
obtained information on the reported event.

Under current FAA guidance, employees submitting reports that are accepted
under ASAP are subject to the following FAA and air carrier actions:

 • Sole source reports (all evidence of the event available to FAA or the air
   carrier is predicated on the ASAP disclosure): These reports will be closed by
   FAA with no action. Similarly, air carriers may not use the information
   obtained in this way to initiate disciplinary action against the employee.

 • Non-sole source reports (information about the event in question is known by
   individuals other than just the ASAP reporter): These reports will be closed by
   FAA with administrative action (i.e., warning notice or letter of correction).
   Air carriers may not use information obtained through the ASAP report to take
   disciplinary action against an employee but may require corrective action, such
   as additional employee training.

FAA must clarify the ERC’s authority so that the program is not perceived as an
amnesty program. Specifically, in each air carrier’s MOU, FAA must clarify to
ASAP participants its statutory authority under Title 49 of the United States Code
(49 U.S.C.) to enforce the necessary rules and regulations. For example, the ERC
                                                                                  12


must reach a consensus when deciding whether a report is accepted into the
program and when deciding on corrective action recommendations. However,
ASAP guidance provides that if there is not an ERC consensus on decisions
concerning a report involving an apparent violation, a medical certification, or
qualification issue, the Agency’s ERC representative will decide how the ASAP
report should be handled.

FAA’s ASAP Training Does Not Emphasize the Need for ERC Members
To Be Impartial
ERC members have the authority to “forgive” violations of the Federal Aviation
Regulations. For this reason, FAA’s ASAP training and supervision should place
significant emphasis on ensuring the impartiality of FAA’s ERC members. The
potential for bias in ERC decision-making can arise from an inspector’s former
airline employment, long-standing inspector assignments, or professional or
personal relationships developed within the aviation industry.

For example, during our review of the January 16, 2006, accident, we determined
that FAA’s ERC representative tasked with reviewing and subsequently accepting
the accident into ASAP was a former pilot for the air carrier. The appearance of a
conflict of interest was raised again when we learned that this ERC inspector
received a copy of the complainant inspector’s statement questioning the
acceptance of the accident into ASAP. The inspector subsequently provided the
document to both the air carrier and pilot union ERC representatives. The
inspector stated that he shared the information because he felt the other ERC
members were entitled to it as part of the ERC’s investigation of the accident.
However, FAA guidance states that “confidentiality is a significant feature of
hotline operations,” and we believe that disclosing this information to third parties
is inappropriate.

To avoid the appearance of bias in ERC reviews of ASAP reports, FAA needs to
emphasize the need for impartiality as part of its required ERC training and
implement procedures to require periodic refresher training in this area.
Additionally, FAA should clarify FAA field office management responsibilities to
ensure personal relationships between inspectors and airline personnel do not
influence decision-making.

FAA Lacks a Process To Effectively Collect and Analyze ASAP Data
FAA needs to develop a central ASAP database to collect information from ASAP
reports in a redacted form, but with sufficient information to identify trends.
Currently, FAA inspectors’ quarterly reports do not provide adequate details about
the nature of ASAP events or the effectiveness of carriers’ corrective actions.
Further, FAA does not have a process that permits it to collect and analyze ASAP
                                                                                13


data to identify potential precursors to accidents and incidents. At present, all
ASAP data reside in computers at air carrier offices because of air carriers’
concerns about confidentiality. While we understand these concerns, we maintain
that FAA needs to obtain these data. We believe FAA has the means and
resources for protecting the confidentiality of the data in a manner and method
similar to that used for ASRS, in which the data are de-identified. Finally, FAA
needs to maximize the benefits of ASAP data through improved, standardized
inspector reporting and centralized data collection to enhance the national margin
of safety.

FAA Inspector Reports Do Not Include Sufficient Information on ASAP
Events or Carriers’ Corrective Actions
FAA inspectors compile quarterly reports of ASAP activity for each participating
air carrier and submit them to the Voluntary Safety Programs Branch at FAA
Headquarters. We found, however, that these reports do not provide sufficient
details about the nature of ASAP events to be effective safety data analysis and
trending tools, and they vary dramatically in content among inspection offices.

Further, FAA guidance for submitting quarterly reports of ASAP activity does not
require inspectors to provide summary information on all ASAP reports submitted
for the quarter. Each air carrier is required to identify notable improvements made
in the air carrier’s operation as a result of ASAP reporting. However, these
program improvements likely resulted from a small fraction of the total ASAP
reports submitted.

For example, 1 carrier submitted 310 ASAP reports in 1 quarter; however, only
3 safety enhancements were identified for that carrier, and there was no
information about the nature of the remaining reports. Summary information on
all 310 reports could have been valuable for national trending. ASAP reports that
did not result in program improvements at one air carrier could result in national
safety enhancements if all ASAP reports received from air carriers were analyzed
to determine if other air carriers experienced similar problems.

We also identified repetitive reporting of problems and safety enhancements from
quarter to quarter. For example, we found that some areas of concern, such as
including altitude deviations and checklist usage, continually showed up as
unresolved in FAA inspectors’ quarterly reports. According to FAA’s guidance
on ASAP, FAA requires carriers to follow through with corrective actions that are
acceptable to all members of the ERC to resolve any safety deficiencies;
otherwise, FAA could exercise the right to terminate the carrier’s ASAP. In our
view, repetitive reports of the same problem would indicate that a carrier’s ASAP
program is ineffective. Yet, we found that FAA inspectors do not flag these
repetitive items or further examine the carriers’ corrective actions; rather, they
                                                                                  14


simply include the issues in their report and send it on to the Voluntary Safety
Programs Branch.

An independent review team convened by the Secretary of Transportation in
May 2008 to examine FAA’s safety culture and management also identified this
issue. The team’s report stated that audits of safety violation disclosures and
carriers’ acceptances can validate adherence to program rules. Audits would also
ensure that FAA does not accept repeated disclosures from the same regulated
entity, which would indicate a failure to implement sufficiently comprehensive
fixes the first time. The report noted that “any willingness on the part of the FAA
(real or perceived) to accept such repeat disclosures would undermine incentives
for compliance.”

Our review found that at one air carrier incomplete or missed checklist items were
noted in the first quarter of 2006 as the most serious events, which were to be
emphasized in pilot retraining. Yet, this problem persisted through the next two
quarterly report submissions. The fact that the same safety violations are recurring
from quarter to quarter indicates the need for heightened concern and stronger
measures to prevent recurring problems and ensure the success of the carrier’s
ASAP.

Under ASAP, safety issues are resolved through corrective action, rather than
punishment or discipline. According to ASAP guidance, the ERC should work
with the air carrier to develop appropriate corrective actions. FAA inspectors
should therefore ensure that these corrective actions were used to educate the
appropriate parties to prevent a recurrence of the problem.

FAA Does Not Analyze ASAP Data on a National Level To Identify Safety
Trends
In addition to the lack of analysis of ASAP reports at the local level, we found that
FAA does not analyze ASAP reports at the national level. Although FAA’s
Voluntary Safety Programs Branch at Headquarters receives inspectors’ quarterly
ASAP reports, FAA has been slow in developing a database that would allow
ASAP reports to be analyzed to identify safety trends. Instead, the Voluntary
Safety Programs Branch is only responsible for developing policies and
procedures to improve the program.

We first identified this issue in May 2007 when we reported that meaningful
information on a runway incursion that occurred at Chicago O’Hare was lost
because of the acceptance and secrecy of the report under ASAP. Another issue
                                                                                                            15


identified in this report was the lack of a central de-identified database to enter,
store, and trend this type of information. 7

In 2008, the Secretary’s independent review team also identified this issue.
Specifically, the team’s report stated that voluntarily disclosed safety data have not
been routinely analyzed at a higher level within the FAA. The report
recommended that FAA analyze Voluntary Disclosure Reporting Program
(VDRP) and ASAP data (and data from many other sources) for two reasons:
(1) to utilize these programs as potential contributors to the identification of trends
and patterns that represent risks and (2) to guarantee the integrity of the voluntary
programs themselves, eliminating any of the downside risks to compliance that
might result from abuse.

To effectively use ASAP data, FAA needs to enhance the quarterly reporting
process by requiring inspectors to submit summary information on all ASAP
events, examine carriers’ repeatedly reported safety concerns, and ensure
corrective actions were used to prevent a recurrence. Further, since the Voluntary
Safety Programs Branch at Headquarters already receives inspectors’ quarterly
reports, FAA should require this office to use these reports to develop a central
ASAP database for national trending. These two efforts could provide FAA with
valuable data for enhancing aviation safety nationwide.

FAA has contracted with Mitre Corporation to develop ASIAS, a system that will
perform integrated queries across ASAP and other safety databases. Thirteen
major air carriers are participating in ASIAS. FAA is using the system to assess
the magnitude of problems that have already been identified. However, while
FAA is continuing efforts to expand ASIAS functionality, the system does not
have the ability to trend data to identify potential risk factors for FAA inspectors.
In addition, access to ASIAS data is limited. Queries must be approved by an
executive board, and results of ASIAS studies go to the Commercial Aviation
Safety Team—a joint FAA and aviation industry group—and are not made public.

While FAA has established a good framework for obtaining valuable safety data
through voluntary reporting by aviation employees, it needs to refine its current
guidance to gain greater program benefit. FAA should consider developing a
database tool similar to ASRS to include ASAP data. This would give FAA a
centralized collection point of voluntarily reported safety data that could be used
for national trending.




7
    OIG Report Number AV-2007-050, “Progress Has Been Made in Reducing Runway Incursions, but Recent
    Incidents Underscore the Need for Further Proactive Efforts,” May 24, 2007. OIG reports are available on our
    website: www.oig.dot.gov.
                                                                               16


RECOMMENDATIONS
Identifying potential precursors to accidents—the purpose of obtaining ASAP
data—is essential to further reduce the accident rate. However, FAA will need to
enhance its involvement in ASAP to fully benefit from this program. To
maximize the safety benefits from ASAP, we recommend that FAA:

   1. Revise current ASAP guidance to exclude accidents from the program and
      clarify what constitutes an “intentional disregard for safety.”

   2. Require that FAA representatives on ERCs receive ASAP reports in a
      timely manner and concurrently with other ERC members.

   3. Modify Advisory Circular 120-66B to clarify that ASAP is not an amnesty
      program and that employees submitting ASAP reports are subject to
      administrative action by FAA and corrective action by the air carrier.

   4. Revise its ERC training to emphasize the need for FAA’s ERC members to
      remain impartial and require periodic refresher training in this area.

   5. Clarify field office management responsibilities to ensure personal
      relationships between inspectors and airline personnel do not influence
      decision-making.

   6. Standardize current ASAP guidance regarding quarterly report submissions
      and ensure they include, at a minimum, summary information regarding the
      ASAP reports submitted

   7. Require inspectors to examine repetitive reports of safety concerns and
      enhancements to ensure that corrective actions are completed in a
      satisfactory manner.

   8. Develop a central database of all air carriers’ ASAP reports that the Agency
      can use for trend analysis at a national level.
                                                                                  17




AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on March 10, 2009, and received its
response on April 28, 2009. FAA concurred with seven recommendations and
partially concurred with recommendation 1. FAA’s response is summarized
below and included in its entirety in the appendix to this report.

In its response to recommendation 1, FAA agreed to clarify what constitutes
“intentional disregard for safety” by revising its advisory and inspector guidance
materials by December 31, 2009. However, FAA did not agree to exclude
accidents from ASAP, believing it may have some unintended consequences.
FAA stated that because ASAP requires that a report be filed within 24 hours of
the event and because airline employees trust the ASAP process, it is possible they
will be more accurate and candid in an ASAP report than they might be in
interviews with either NTSB or FAA representatives. FAA also maintained that
because the ERCs review and recommend corrective actions in a short timeframe,
this allows safety risks to be mitigated before either FAA or the NTSB completes
their investigations. FAA stated it has begun consultations with NTSB senior staff
to determine whether they agree that accidents should be excluded from ASAP
programs.

We reject FAA’s assertion that employees might be more candid and accurate in
an ASAP report because we believe aviation professionals would understand it is
their responsibility to be candid with a Federal investigator. Further, FAA’s
contention that NTSB investigations may take several years ignores the fact that
NTSB teams usually arrive on accident scenes within hours, question witnesses
immediately, and have greater investigative resources and skills than ERC
members. In addition, the NTSB issues preliminary reports and updated
information throughout its investigations, and air carriers, airports, other aviation
stakeholders, and even FAA may take corrective actions before the NTSB’s final
report is issued. Therefore, we continue to maintain that accidents should be
excluded from ASAP.

However, we agree that the NTSB can provide an important perspective on this
issue. We will leave recommendation 1 open until FAA concludes its
consultations with NTSB on this matter. Closure of this recommendation will
depend on the outcome of those discussions.

FAA concurred with recommendations 2 through 8 and proposed acceptable
actions and target completion dates.   FAA also noted with respect to
recommendation 8 that ASRS and ASIAS already provide FAA the ability to use
                                                                                 18


ASAP reports in trend analysis. We agree that ASRS is a valuable safety tool
because of the alerts to FAA and others concerning safety issues identified from
ASRS submissions. However, not all ASAP reports are included in ASRS and, as
such, it cannot be considered a central ASAP database. Further, ASIAS does not
include all air carriers, has limited user access and reporting, and, by FAA’s own
admission, does not currently trend safety data.

ACTIONS REQUIRED
In accordance with DOT Order 8000.1C, we request that FAA reconsider its
position regarding the part of recommendation 1 related to excluding accidents
from ASAP reporting.          Please provide your written response regarding
recommendation 1 within 30 days of issuance of this report. FAA’s planned
actions and target dates for recommendations 2, 3, 4, 5, 6, 7, and 8 are responsive,
and we consider these recommendations addressed pending completion of the
proposed actions.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please contact me at 202-
366-0500 or Tina Nysted, Program Director, at (404) 562-3770.


                                         #


cc: FAA Associate Administrator for Safety
    FAA Chief of Staff
    Anthony Williams, ABU-100
    Martin Gertel, M-100
                                                                               19




EXHIBIT A. OBJECTIVE, SCOPE, AND METHODOLOGY
This performance audit was conducted in accordance with generally accepted
government auditing standards prescribed by the Comptroller General of the
United States and included such test as we considered necessary to provide
reasonable assurance of detecting abuse or illegal acts. We conducted this review
between September 2006 and January 2009 using the following methodology.

Our objective was to assess FAA’s implementation of ASAP and identify any
improvements necessary for FAA to obtain maximum safety benefits from the
program. We selected three carriers (Continental, Comair, and Delta Airlines) for
review. One of these carriers was selected based on a complainant’s concern over
the acceptance of a fatal accident into ASAP. Specifically, the complainant
questioned whether (1) FAA performed oversight of the maintenance provider at
the airport, (2) a fatality should preclude an incident from being accepted into
ASAP, and (3) the leak of an internal FAA memo to the carrier violates any laws
or regulations.

While we did not obtain ASAP reports from air carriers due to their highly
confidential nature, we did obtain, review, and evaluate general background
information on ASAPs, the associated Event Review Committees at the three
carriers, and Certificate Management Office inspectors to determine (1) the
methods for report submission, (2) the consistency with which certain accidents or
incidents are entered into ASAP versus other reporting methods, (3) administrative
action and training issued as part of the infraction, and (4) data tracking and
trending of the ASAP submissions.

To evaluate the ASAP data, the acceptance of accidents or incidents, and trending
for each location, we:

 • interviewed FAA representatives from FAA Headquarters (Flight Standards,
   Research and Development, and AFS-230 Aviation Safety Programs) and
   Flight Standards local offices (Principal Operations and Maintenance
   inspectors, Event Review Committee members and inspectors).

 • interviewed airline personnel (such as pilots, Air Line Pilots Association
   representatives, Safety and Regulatory personnel, and Flight Standards and
   Training-Human Factors personnel).

 • verified the status of FAA’s joint research program with the University of
   Texas and the National Aeronautics and Space Administration on the
   collection and trending of redacted ASAP data.


Exhibit A. Objective, Scope, and Methodology
                                                                               20




EXHIBIT B. ENTITIES VISITED OR CONTACTED

Federal Aviation Administration

 • FAA Headquarters, Washington, DC

 • Delta Air Lines Certificate Management Office, College Park, GA

 • Continental Airlines Certificate Management Office, Houston, TX

 • Comair Certificate Management Office, Louisville, KY (information obtained
    via video-conference)


Airlines, Industry Associations, and Other Agencies

 • Delta Air Lines, Atlanta, GA

 • Continental Airlines, Houston, TX

 • Air Line Pilots Association Representatives, Atlanta, GA, and Houston, TX

 • National Transportation Safety Board, Washington, DC

 • University of Texas—Distributed National ASAP Archive, Austin, TX

 • National Aeronautics and Space Administration, Ames Research Center,
   Moffett Field, CA

 • Mitre Corporation, Center for Advanced Aviation System Development,
   McLean, VA




Exhibit B. Entities Visited or Contacted
                                                                           21




EXHIBIT C. ASAP ANNUAL REVIEW ANALYSIS OF PILOT ERCS


ASAP Review Annual               FY 2005 Pilot FY 2006 Pilot FY 2007 Pilot
Report Questions                 ERC Responses ERC Responses ERC Responses
Have you experienced any         YES (20%)     YES (16%)     YES (50%)
problems or interpretation
issues regarding the             2 of 10       2 of 12       2 of 4
meaning of “Intentional          respondents   respondents   respondents
Disregard for Safety”?
Is the ERC process seen as       YES (50%)     YES (16%)     YES (25%)
a “get out of jail free”
giveaway by others outside       5 of 10       2 of 12       1 of 4
of the ERC?                      respondents   respondents   respondents
Is there a process to track      YES (80%)     YES (100%)    YES (75%)
whether corrective actions
to the company                   8 of 10       12 of 12      3 of 4
recommended by the ERC           respondents   respondents   respondents
are implemented?
Are de-identified reports        YES (100%)    YES (83%)     YES (75%)
distributed to
ERC members for review in        10 of 10      10 of 12      3 of 4
advance of the ERC               respondents   respondents   respondents
meetings?
Is there a process in place to   YES (70%)     YES (83%)     YES (75%)
determine the effectiveness
of corrective actions            7 of 10       10 of 12      3 of 4
recommended by the ERC?          respondents   respondents   respondents
Has the ERC made                 YES (40%)     YES (33%)     NO (100%)
corrective action
recommendations to the           4 of 10       4 of 12       4 of 4
company that have not been       respondents   respondents   respondents
implemented?
Has the airline developed a      YES (50%)     YES (75%)     This question is
categorization scheme for                                    not listed in the
aggregating the types of         5 of 10       9 of 12       FY 2007 review.
ASAP events?                     respondents   respondents
Source: FAA




Exhibit C. ASAP Annual Review Analysis of Pilot ERCs
                                                                                                 22




APPENDIX. AGENCY COMMENTS


                     Federal Aviation
                     Administration

Memorandum
Date:           April 28, 2009
To:             Lou Dixon, Assistant Inspector General for Aviation and Special Audit
                Programs
From:          Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO
Prepared by: Anthony Williams, x79000
Subject:        OIG Draft Report: FAA is Not Realizing the Full Benefits of the Aviation
                Safety Action Program


Thank you for the opportunity to review and respond to the recommendations in your draft
report: “FAA is Not Realizing the Full Benefits of the Aviation Safety Action Program”. While
the Federal Aviation Administration (FAA) agrees that, in some cases, guidance on the
administration of the Aviation Safety Action Program (ASAP) could be improved, we believe
ASAP already contributes greatly to FAA’s safety mission. We appreciate the recommendations
in your report and will use them to improve guidance and training for inspectors and operators,
as well as communication of trends to field inspectors.

OIG Recommendation 1: Revise current ASAP guidance to exclude accidents from the program
and clarify what constitutes an “intentional disregard for safety.”

FAA Response: Partially Concur. The FAA agrees to clarify what constitutes “intentional
disregard for safety” and will revise its Advisory and Inspector Guidance materials. The FAA
plans to complete the revisions by December 31, 2009.

The FAA understands the analysis that resulted in this recommendation; however, FAA is
concerned that excluding accidents from ASAP programs may have some unintended
consequences. While it is true that accidents are fully investigated by the National
Transportation Safety Board (NTSB), those investigations often take several years to complete.
In the meantime, FAA conducts its own investigation in an effort to identify any areas of FAA
responsibilities that may have contributed to the accident so that corrective actions can be taken.
In both cases, the investigation would benefit from the most detailed and candid recollections of
the people involved in the event. Because the ASAP program requires that a report is filed
within twenty-four hours of the event, and because airline employees trust the ASAP process, it


Appendix. Agency Comments
                                                                                                 23


is possible they will be more accurate and candid in an ASAP report than they might be in
interviews with either NTSB or FAA. In addition, a timely ASAP report requires that the Event
Review Committee (ERC) review and recommend corrective actions in a short time frame. This
quick response allows for safety risks to be mitigated before either FAA or NTSB completes its
investigations. Excluding accidents from the ASAP program may risk losing important details
that those involved recall within twenty-four hours of the event. It may also delay safety
enhancements that can benefit the operator involved in the accident, industry employees, and the
traveling public.

The FAA has begun consultations with senior staff at NTSB to determine whether they agree that
accidents should be excluded from ASAP programs. What is important is that NTSB and
FAA have the most complete information available when investigating an accident. If NTSB
finds ASAP reports to be beneficial, FAA will identify a process to assure that NTSB has access
to these reports. We will keep you informed of the status of our discussions with NTSB.

OIG Recommendation 2: Require that FAA representatives on ERCs receive ASAP reports in a
timely manner and concurrently with other ERC members.

FAA Response: Concur. Advisory Circular (AC) 120-66B, Aviation Safety Action Program, and
FAA Order 8900.1, Flight Standards Information Management System, will be revised to
specify that distribution and/or electronic access to ASAP reports must be provided at the same
time to each member of the ERC. The FAA will complete the revisions by the end of calendar
year 2010.

OIG Recommendation 3: Modify Advisory Circular 120-66B to clarify that ASAP is not an
amnesty program and that employees submitting ASAP reports are subject to administrative
action by FAA and corrective action by the air carrier.

FAA Response: Concur. The FAA will revise AC 120-66B and FAA Order 8900.1, as well as
the content of the formal ASAP training course for inspectors to further emphasize this issue.
The draft report’s recommendation on this matter will be specifically included in ASAP
inspector training. The FAA will complete its revisions by December 31, 2010.

OIG Recommendation 4: Revise its ERC training to emphasize the need for FAA’s ERC
members to remain impartial and require periodic refresher training in this area.

FAA Response: Concur. The FAA agrees that inspectors should avoid the appearance of bias in
their interactions with regulated entities, regardless of whether it involves an ASAP issue or
another matter. The FAA will include this issue as a subject in its indoctrination training for new
inspectors, and in its recurrent inspector training material, including ASAP training. The FAA
will complete this updated information by December 31, 2009.

OIG Recommendation 5: Clarify field office management responsibilities to ensure personal
relationships between inspectors and airline personnel do not influence decision making.

FAA Response: Concur. The FAA will ensure that this issue is included in its formal training
for Flight Standards supervisory personnel. The FAA will complete this updated information by
December 31, 2009.



Appendix. Agency Comments
                                                                                              24


OIG Recommendation 6: Standardize current ASAP guidance regarding quarterly report
submissions and ensure they include, at a minimum, summary information regarding the ASAP
reports submitted (e.g., number of altitude deviations, number of course deviations, etc.).

FAA Response: Concur. The FAA agrees that a standardized format for the quarterly report
submission is beneficial. The FAA has already provided a template for the quarterly report in
guidance to inspectors. The FAA also communicates concerns about the format of report
submissions in a quarterly newsletter available to certificate holding district offices that
participate in voluntary disclosure programs. The FAA will continue to stress the use of the
report template in its communication with inspectors. The FAA also understands the desire of
the OIG to see ASAP data used nationally for trend analysis. The use of standardized formats
will enhance the FAA's ability to compare data and identify trends. We have included additional
information on this subject in our response to Recommendation 8. The FAA will complete the
standardized format by December 31, 2009.

OIG Recommendation 7: Require inspectors to examine repetitive reports of safety concerns
and enhancements to ensure that corrective actions are completed in a satisfactory manner.

FAA Response: Concur. Both of these issues (repetitive violations and satisfactory completion of
corrective actions) are already addressed in AC 120-66B and FAA Order 8900.1.

AC 120-66B is currently under revision and will place stronger emphasis on repetitive violations
and the completion of corrective actions. The FAA has reviewed the current FAA Order 8900.1,
and determined the document is clear on its guidance to inspectors for addressing repetitive
violations and the completion of corrective actions. The FAA will continue to address these
issues in our communications and programs with inspectors, air carriers, and labor groups. The
FAA will complete the revision of AC 120-66B by December 31, 2010.

OIG Recommendation 8: Develop a central database of all air carriers’ ASAP reports that the
Agency can use for trend analysis at a national level.

FAA Response: Concur. While FAA concurs with this recommendation, we would like to add
that two programs already provide FAA the ability to use ASAP reports in trend analysis: the
Aviation Safety Reporting System (ASRS) and the Aviation Safety Information and Analysis
System (ASIAS). At least 60 percent of ASRS reports received from air carrier employees are, in
fact, ASAP reports. The National Aeronautics and Space Administration routinely provides
“Alerts” to the FAA concerning safety issues identified from ASRS submissions. The FAA is
also committed to the establishment of ASIAS as a centralized system for the acquisition and
analysis of ASAP and other safety-related information at a national level. The FAA believes that
ASIAS will be capable of this functionality by the end of calendar year 2010. Flight Standards
further commits to develop, by the end of calendar year 2010, a vehicle by which to
communicate trends identified by ASIAS to field inspectors. This vehicle will push the
information, rather than requiring inspectors to independently seek it. We believe the
combination of ASIAS with a communication vehicle also addresses the concerns identified in
Recommendation 6. These actions will be completed by December 31, 2010.




Appendix. Agency Comments
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
                     FAA Is Not Realizing the Full Benefits
                of the Aviation Safety Action Program (ASAP)

                      Section 508 Compliant Presentation


Figure. Memoranda of Understanding for ASAP by Labor Type

Air carriers can establish Memoranda of Understanding, or MOUs, with pilots,
mechanics, flight attendants, and dispatchers. Most of the current MOUs for
ASAP are with pilots.

 • Pilots: 66 MOUs or 38 percent
 • Mechanics: 43 MOUs or 25 percent
 • Dispatchers: 44 MOUs or 26 percent
 • Flight Attendants: 14 MOUs or 8 percent
 • Other: 5 MOUs or 3 percent

Total MOUs: 172

Note: Percentages shown exceed 100 percent due to rounding

Data are as of January 2009

Source: Federal Aviation Administration

Table. Comparison of Two Voluntary Safety Reporting Programs

Both the Aviation Safety Action Program (ASAP) and the Aviation Safety
Reporting System (ASRS) are non-punitive voluntary reporting programs.

Reports for both ASAP and ASRS are obtained from pilots, air traffic controllers,
flight attendants, and maintenance technicians.

Both ASAP and ASRS are designed to collect voluntarily submitted aviation
safety violations.

Report processing for both ASAP and ASRS includes de-identification to protect
reporter confidentiality.

For ASRS, direct access to the database is available for the public through an FAA
website. This is not available through ASAP.
ASRS does not accept accidents into its database. ASAP does accept accidents
into its database.

ASRS data analysis results in safety alerts to aviation authorities; ASAP data
analysis does not.

Exhibit C. ASAP Annual Review Analysis of Pilot Event Review Committees

ASAP Review Annual Report Question: Have you experienced any problems
or interpretation issues regarding the meaning of “Intentional Disregard for
Safety”?

 • Fiscal Year 2005 Pilot Event Review Committee Responses: YES (20 percent
   or 2 of 10 respondents)

 • Fiscal Year 2006 Pilot Event Review Committee Responses: YES (16 percent
   or 2 of 12 respondents)

 • Fiscal Year 2007 Pilot Event Review Committee Responses: YES (50 percent
   or 2 of 4 respondents)

ASAP Review Annual Report Question: Is the Event Review Committee
process seen as a “get out of jail free” giveaway by others outside of the Event
Review Committee?

 • Fiscal Year 2005 Pilot Event Review Committee Responses: YES (50 percent
   or 5 of 10 respondents)

 • Fiscal Year 2006 Pilot Event Review Committee Responses: YES (16 percent
   or 2 of 12 respondents)

 • Fiscal Year 2007 Pilot Event Review Committee Responses: YES (25 percent
   or 1 of 4 respondents)

ASAP Review Annual Report Question: Is there a process to track whether
corrective actions to the company recommended by the Event Review Committee
are implemented?

 • Fiscal Year 2005 Pilot Event Review Committee Responses: YES (80 percent
   or 8 of 10 respondents)

 • Fiscal Year 2006 Pilot Event Review Committee Responses: YES (100 percent
   or 12 of 12 respondents)
 • Fiscal Year 2007 Pilot Event Review Committee Responses: YES (75 percent
   or 3 of 4 respondents)

ASAP Review Annual Report Question: Are de-identified reports distributed to
Event Review Committee members for review in advance of the Event Review
Committee meetings?

 • Fiscal Year 2005 Pilot Event Review Committee Responses: YES (100 percent
   or 10 of 10 respondents)

 • Fiscal Year 2006 Pilot Event Review Committee Responses: YES (83 percent
   or 10 of 12 respondents)

 • Fiscal Year 2007 Pilot Event Review Committee Responses: YES (75 percent
   or 3 of 4 respondents)

ASAP Review Annual Report Question: Is there a process in place to determine
the effectiveness of corrective actions recommended by the Event Review
Committee?

 • Fiscal Year 2005 Pilot Event Review Committee Responses: YES (70 percent
   or 7 of 10 respondents)

 • Fiscal Year 2006 Pilot Event Review Committee Responses: YES (83 percent
   or 10 of 12 respondents)

 • Fiscal Year 2007 Pilot Event Review Committee Responses: YES (75 percent
   or 3 of 4 respondents)

ASAP Review Annual Report Question: Has the Event Review Committee
made corrective action recommendations to the company that have not been
implemented?

 • Fiscal Year 2005 Pilot Event Review Committee Responses: YES (40 percent
   or 4 of 10 respondents)

 • Fiscal Year 2006 Pilot Event Review Committee Responses: YES (33 percent
   or 4 of 12 respondents)

 • Fiscal Year 2007 Pilot Event Review Committee Responses: NO (100 percent
   or 4 of 4 respondents)
ASAP Review Annual Report Question: Has the airline developed a
categorization scheme for aggregating the types of ASAP events?

 • Fiscal Year 2005 Pilot Event Review Committee Responses: YES (50 percent
   or 5 of 10 respondents)

 • Fiscal Year 2006 Pilot Event Review Committee Responses: YES (75 percent
   or 9 of 12 respondents)

 • Fiscal Year 2007 Pilot Event Review Committee Responses: This question was
   not listed in the fiscal year 2007 review.
